U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 23, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Kansas Natural Resource Coalition v. Department of the Interior, et al.,
S.Ct. No. 20-1195

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 25,
2021, and placed on the docket on March 1, 2021. The government’s response is due on March
31, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 30, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1195
KANSAS NATURAL RESOURCE COALITION
DEPARTMENT OF THE INTERIOR, ET AL.

CHRISTINE CARLETTA
KING & SPALDING LLP
1700 PENNSYLVANIA AVE, NW
WASHINGTON, DC 20006
CCARLETTA@KSLAW.COM
JAY R. CARSON
THE BUCKEYE INSTITUTE
,
J.CARSON@BUCKEYEINSTITUTE.ORG
MEREDITH DI LIBERTO
JUDICIAL WATCH
425 THIRD STREET, S.W.
SUITE 800
WASHINGTON, DC 20024
202-646-5172
MDILIBERTO@JUDICIALWATCH.ORG
KENNETH W. ESTES
CALIHAN LAW FIRM
P.O. BOX 1016
GARDEN CITY, KS 67846
620-276-2381
KESTES@CALIHANLAWFIRM.COM
JEFFREY W. MCCOY
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
916-419-7111
JMCCOY@PACIFICLEGAL.ORG

JONATHAN CALVIN WOOD
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
202-888-6881
JWOOD@PACIFICLEGAL.ORG

